Semiannual Report To Congress
        October 1, 2013 - March 31, 2014

    Fiscal Year 2014 Semiannual Report No. 1
Table of Contents



                                                                    Contents
ABOUT THE CORPORATION FOR NATIONAL AND COMMUNITY SERVICE . . . ....... 3
MESSAGE FROM THE INSPECTOR GENERAL ......................................................... 4
AUDITS AND REVIEWS ........................................................................................7
    PENDING AUDITS AND EVALUATIONS ................................................................................................................ 8
    STATUTORY AUDITS AND EVALUATIONS............................................................................................................. 8
       Financial Statement Audit, FY 2013: Progress in Removing Repeated Material Weakness in Grant Accruals, but
       Other Serious Internal Control Issues Persist ........................................................................................................8

       Federal Information Security Management Act (FISMA) Independent Evaluation for FY 2013: Information
       Security Weaknesses Require Attention................................................................................................................8

    GRANT MANAGEMENT AND OVERSIGHT.......................................................................................................... 10
       Senior Corps Grantee’s Ineffective Financial Management and Poor Volunteer Station Monitoring Caused
       More than $2.25 Million in Overcharges ............................................................................................................10

       Grantee’s Volunteer Recognition Practice Undermines Program Integrity ........................................................10

       Noncompliant Criminal History Checks and Improper Fundraising Activity Result in Questioned Costs in Grants
       Awarded to the Arkansas Commission ...............................................................................................................11

       Corporation Disallows $1.4 Million in Costs Claimed by Senior Corps Grantee AHR Based on OIG Audit ..........12

       Corporation Fails to Recover Costs for 14 Months While Grantee’s Finances Deteriorate into Bankruptcy.......12

INVESTIGATIONS............................................................................................... 15
    INVESTIGATIVE DEMANDS ............................................................................................................................. 16
    SIGNIFICANT CASES AND ACTIVITY .................................................................................................................. 16
       Corporation Pursues Recovery of Funds Based on OIG Investigation .................................................................16

       Former School Employee Pleads Guilty to Theft of AmeriCorps Funds ...............................................................16

       AmeriCorps Grantee Misused AmeriCorps Members in Staff Positions, Improperly Disbursed Living Allowances
       of $236,355 and Improperly Certified $66,600 in Education Awards .................................................................16

       Corporation Manager Misused Government Credit Card ...................................................................................17

       VISTAs Assigned to Staff Positions ......................................................................................................................17

       Corporation’s Manual Verification of Citizenship Unreliable; OIG Recommends Changes .................................18

       Proactive Efforts Result in Corrective Actions .....................................................................................................18




1
        Investigation of Guam AmeriCorps Grantee Highlights Risks of Enrolling Employees ........................................19

SUSPENSION AND DEBARMENT ........................................................................ 21
  RECENT ACTIVITY......................................................................................................................................... 22
        Former School Employee Debarred After Conviction ..........................................................................................22

        Former AmeriCorps Program Director’s Deception Leads to Debarment ...........................................................22

        Former Nevada State Commission Program Officer Debarred for Conflict of Interest and False Statements ....22

PEER REVIEW .................................................................................................... 23
  INVESTIGATIONS .......................................................................................................................................... 24
  AUDIT ………………………………………………………………………………………………………………………………………………….24

REVIEW OF LEGISLATION AND REGULATIONS ................................................... 25
        Congress Grants Legislative Relief To Facilitate FBI Fingerprint Checks by Grantees .........................................26

        Corporation Does Not Provide ACA-Compliant Health Care Coverage: AmeriCorps and VISTA Members Must
        Find Other Insurance ...........................................................................................................................................26

        Corporation Strengthens Accountability in VISTA Program, Modifies VISTA Sponsor Agreements To Hold
        Sponsor Financially Responsible for Improper Use of VISTA Volunteers .............................................................27

        Conference Spending ..........................................................................................................................................28

        Corporation Policy Council ..................................................................................................................................28

STATISTICAL AND SUMMARY TABLES................................................................ 29
  I.         INSPECTOR GENERAL ACT REPORTING REQUIREMENTS ............................................................................. 30
  II.        REPORTS WITH QUESTIONED COSTS ...................................................................................................... 31
  III.       REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE ................................................. 32
  VI.        AUDIT REPORTS ISSUED ....................................................................................................................... 35

AGENCY RESPONSE ........................................................................................... 36




                                                                                                                                                                        2
     About the Corporation for National and Community
                         Service . . .
The Corporation for National and Community Service (Corporation) provides grants and technical
assistance to volunteer organizations throughout the United States to strengthen communities, foster
civic engagement, and improve the lives of all Americans serving their local communities and the Nation.
For Fiscal Year (FY) 2013, the Corporation invested $840 million in these service organizations:
AmeriCorps, Volunteers in Service to America (VISTA), the National Civilian Community Corps, and
Senior Corps. The Corporation also distributed a substantial portion of funding through public service
commissions in each U.S. state and territory.




and The Office of Inspector General . . .
Established along with the Corporation in 1993, the Office of Inspector General (OIG or the Office) was
created to promote economy, efficiency and effectiveness in administering the Corporation’s programs.
The Office also prevents and detects waste, fraud, and abuse within the Corporation or from the entities
that receive and distribute Corporation grant funds. OIG is an independent organization, led by a
Presidential appointee, which operates separately of the Corporation and submits its reports and
recommendations to the Corporation’s Chief Executive Officer and to the Congress.




Pursuant to the Inspector General Act of 1978, as amended, this semiannual report summarizes OIG’s
work for the last six months of FY 2014. It is being transmitted to the Corporation’s Chief Executive
Officer, Board of Directors, and Members of Congress.




3
                                                                                              Deborah J. Jeffrey
                                                                                              Inspector General




                       Message from the Inspector General
The management of risk is an essential ingredient of public stewardship and a core responsibility of senior
leaders in every Federal agency. Without it, there can be no assurance that agencies pursue their missions in
compliance with laws and regulations and with minimum potential for waste, fraud and mismanagement.

Managing risks requires an accurate and comprehensive picture of what they are and where they reside. To
prioritize corrective actions, you must understand the significance and potential impact of the risks that you
face. And once a risk is identified and assessed, it must be reliably controlled or mitigated by enforced
policies, processes and mechanisms (typically referred to as “internal controls”), and not left to hope, trust or
individual initiative. Those internal controls must themselves be tested and their effectiveness continuously
monitored, with a systematic process in place for their improvement.

No comprehensive risk management strategy

The Corporation for National and Community Service lacks a coherent risk management program to identify
the risks inherent in its activities, as well as a global process to measure, monitor and control them.
Historically, the Corporation has responded vigorously when problems materialize, but it has been less
successful in anticipating or detecting problems and intervening before losses occur, leaving itself no
alternative other than to “pay and chase.” And, rather than prioritizing its largest risks, CNCS has deferred
action on risks and internal control defects that it knows to be serious, in favor of addressing small, easily
fixed problems. In FY 2013, for example, the executive-level Financial Integrity Steering Committee chose to
respond to relatively minor items identified by the financial statement auditors, while leaving unaddressed
known deficiencies in such high-impact areas as grant oversight and procurement.

OIG audits reveal deficiencies arising from poor risk management

Lack of sophisticated risk assessment and meaningful risk management underlies many of the deficiencies
exposed in audits and evaluations conducted by the Office of Inspector General:

    •   Financial Information Security Management Act (FISMA) evaluation: CNCS lacks a formally
        documented and fully implemented risk management framework, as well as a strategy for
        continuous monitoring of information security;



                                                                                                               4
    •   Fixed Amount Grants: CNCS failed to conduct a formal risk assessment before undertaking and
        expanding use of such grants and inexplicably delayed implementing procedures to monitor or
        mitigate the risks that it admittedly knew about, leaving gaps in its internal controls that allowed a
        grantee to go bankrupt while owing the Corporation more than $ 1 million;
    •   Improper Payments Elimination and Recovery Act (IPERA) evaluation: AmeriCorps, the Corporation’s
        largest program, likely makes improper payments of more than $10 million per year, but CNCS
        cannot reliably project and quantify the amount and has offered no plan for recovering improperly
        paid funds;
    •   Financial Statement Audit for FY 2013: For the fourth year, the outside auditors have advised the
        CEO and the Board of Directors that the Corporation needs a global, integrated risk management
        strategy to strengthen inadequate practices for assessing risk, evaluating the effectiveness of internal
        controls and timely resolving weaknesses; and
    •   Audits of Senior Corps Grantees Atlantic Human Resources (AHR) and Family Services of Central
        Massachusetts (FSCM): Failure to detect pervasive financial mismanagement—resulting in
        overcharges of $895,000 in the case of AHR and $2.25 million in the case of FSCM—occurring over an
        extended period raises questions about the quality of grant monitoring.

Delay jeopardizes recovery of large improper payments

CNCS has also delayed recovering overpayments from grantees. In the case of Operation Reach, Inc. (ORI),
the Corporation postponed action on our audit for more than 14 months, despite $660,000 in unsupported
Federal costs and education awards, lack of responsiveness by the grantee and the grantee’s precarious
financial condition and track record of broken promises. When ORI declared bankruptcy, the Corporation
submitted our audit report in support of its sworn claim, inviting questions as to why it had not acted sooner
to collect the debt. In the similar case of AHR, the Corporation has known since April 2013 that the grantee
could provide no support for its claimed costs, but waited a year before demanding repayment of $895,000.
Not surprisingly, the grantee's financial conditions deteriorated further in the interim, dimming prospects for
significant recoveries. Given the sums involved, the Corporation should have pursued these debts quickly.

Grant monitoring priorities are based on ill-adapted criteria that distort risk

Though risk-based in theory, the Corporation’s grant supervision is deeply flawed. The 18 criteria used to
assess risk were developed for traditional cost reimbursement grants, but CNCS applies them indiscriminately
to fixed amount grants and grants for technical training and assistance. This one-size-fits-all approach
systematically understates and/or ignores risks inherent in those other grants, as we explained in a recent
audit report. Even for traditional grants, the Corporation has never validated its risk indicators against
outcomes or used outcomes to identify other factors that could sharpen its analysis.




5
Outdated information technology inhibits efficient risk management

The Corporation collects a wealth of information from its grantees, but its outdated information technology
systems do not support the kind of data analytics that other agencies use effectively for early detection of
fraud and mismanagement. CNCS cannot readily compare information across the grant portfolio or for
subsets of grants or grantees, either for benchmarking or to identify anomalies and outliers, e.g., to calculate
the expected rate of member attrition in an AmeriCorps grant or identify grantees whose attrition exceeds a
pre-determined level. Although Congress and the Executive Branch both encourage increasing use of
technological tools to improve risk management, the Corporation is falling further behind, relying on
inefficient and easily disrupted manual processes for its oversight. Recognizing the growing gap between its
business needs and its IT infrastructure, CNCS engaged MITRE Corporation for guidance about modernization;
the Corporation appears to have embraced the recommendations and has taken the first steps toward
implementation. OIG awaits the results.

In sum, considerable work is needed to elevate the Corporation’s risk management to a level sufficient to
safeguard the integrity and effectiveness of the public’s investment in national service. The Corporation
made early progress by strengthening the grant award process and establishing an accountability unit more
than one year ago, and by educating grantees about the high accountability standards they are expected to
meet. To build on those efforts, senior leaders must devote sustained attention to internal risk management,
grappling first with the Corporation’s most significant risks, and requiring tangible progress in the short term.
The dedicated staff of the Office of Inspector General stands ready to support that effort.




                                                                                                               6
                                 Audits and Reviews


The Office of Inspector General Audit Section reviews the financial, administrative, and programmatic
operations of the Corporation for National and Community Service. The Audit Section’s responsibilities
include supervising the audit of the Corporation’s annual financial statements, assessing the
Corporation’s management controls, reviewing the Corporation’s operations, and auditing individual
grants, contracts, and cooperative agreements funded by the Corporation. All OIG audit reports and
reviews are issued to Corporation management for its action or information.




                                                                                                    7
Audits and Reviews



Pending Audits and Evaluations
At the end of the reporting period, an evaluation of the Corporation’s internal controls to prevent and
detect prohibited activities in AmeriCorps and Senior Corps programs, an audit of consultant services,
and four grantee audits or agreed-upon procedures engagements were in process. Below are highlights
of particular evaluations and audits for this reporting period.


Statutory Audits and Evaluations
Financial Statement Audit, FY 2013: Progress in Removing Repeated Material Weakness in
Grant Accruals, but Other Serious Internal Control Issues Persist

The statutory audit of the Corporation’s FY 2013 Financial Statements and National Service Trust
statements marked the 13th consecutive year of unmodified (“clean”) opinions, indicating that the
Corporation’s financial statements and National Service Trust statements were fairly presented in all
material respects, in conformity with generally accepted accounting principles, and that there were no
instances of noncompliance with laws and regulations. With the resolution of a recurring material
weakness issue in its grant accruals, the audit found no weaknesses or significant deficiencies.

Nevertheless, significant challenges remain for the Corporation to improve its internal controls. For the
fourth year in a row, the outside auditors continued to express concerns in their Management Letter
regarding the inadequacy of the internal control framework and annual assessment process. Despite
early progress towards establishing an accountability structure, the Corporation still lacks an effective
risk-based assessment process. In particular, the Corporation does not yet have either the foundational
comprehensive policies or the fully functioning governance body necessary to enable the Corporation to
properly assess risks, identify controls, evaluate control effectiveness and take timely corrective action
to fix control deficiencies. Through our regular participation in the Corporation’s internal control
governance body and periodic meetings held with the Corporation staff, OIG continues to advocate for
increased management attention to resolve these longstanding issues. We have briefed both the CEO
and the Corporation’s Board of Directors concerning our reservations about the pace of improvement
and our recommendations for increased investment in protecting the taxpayers’ interests. (Report:
http://www.cncsoig.gov/news-entry/14-01 ) (Report: http://www.cncsoig.gov/news-entry/14-02 )

Federal Information Security Management Act (FISMA) Independent Evaluation for FY 2013:
Information Security Weaknesses Require Attention

The statutorily required evaluation (Report: http://www.cncsoig.gov/news-entry/14-03 ) of the
Corporation’s information security management program found limited assurance that the
Corporation’s Information Assurance Program (IAP) complies with statutory requirements, applicable




                                                                                                        8
                                                                            Audits and Reviews
guidance from the Office of Management and Budget (OMB) and standards established by the National
Institute of Standards and Technology (NIST).

The following areas require management attention:

    •       Continuous Monitoring Management;
    •       Identity and Access Management;
    •       Risk Management;
    •       Security Training;
    •       Plans of Action and Milestones (POA&M);
    •       Remote Access Management; and
    •       Contingency Planning.

The audit team identified six unaddressed security control deficiencies:

        •       Lack of a formally documented and fully implemented Information Security Continuous
                Monitoring (ISCM) strategy;
        •       Lack of formally documented and fully implemented Risk Management Framework
                (RMF);
        •       Lack of a fully implemented, role-based information security training program;
        •       Improvements needed with POA&M reporting;
        •       Improvements needed to ensure that contractors comply with the Corporation’s IAP
                requirements; and
        •       Lack of two-factor authentication to the Corporation’s desktops, laptops, and corporate
                network.

Addressing these security control deficiencies will assist the Corporation’s ongoing efforts to assure
adequate security over its information resources. Evaluators made nine recommendations to further
strengthen the Corporation’s IAP.




9
Audits and Reviews



Grant Management and Oversight
Senior Corps Grantee’s Ineffective Financial Management and Poor Volunteer Station
Monitoring Caused More than $2.25 Million in Overcharges

A Senior Corps grantee, Family Services of Central Massachusetts, overcharged the Corporation more
than 71 percent of the Federal costs for two Retired and Senior Volunteer Program (RSVP) and two
Senior Companion Program (SCP) grants over the past four years. These unsubstantiated and/or
improperly incurred costs included more than $1.7 million in Federal costs and nearly $560,000 in match
costs. (Report: http://www.cncsoig.gov/news-entry/14-05 ) These deficiencies resulted from the
grantee’s fundamental weaknesses in its internal controls, including:

    •   Inconsistencies between grantee’s internal financial records (general ledger) and its periodic
        financial reports to the Federal government;
    •   Lack of supporting documentation and/or proper approval of claimed costs;
    •   Unsubstantiated charges for volunteer travel and meals;
    •   Failure to ensure income-eligibility for means-tested benefits, as well as other missing eligibility
        documentation, including background checks and volunteers’ written assignment plans; and
    •   Lack of formal processes for monitoring volunteer stations.

Fundamentally, the grantee’s financial management practices were inadequate to administer Federal
funds. The grantee’s financial staff was unfamiliar with basic grant accounting requirements, and the
grantee’s management did not fulfill its supervisory obligation to ensure that its personnel were
adequately trained and their work reviewed for adequacy. The grantee failed to document and support
charges for volunteer meals, travel, salaries, fringe benefits, other direct costs, and the majority of the
claimed match costs. Moreover, the grantee did not properly conduct or document the mandatory
background checks for all employees working on the grants.

To address the severity of the findings, we recommended that the Corporation withhold additional
drawdowns and require supporting documentation prior to any further grant disbursements. We also
recommended that the grantee improve its grant accounting operations and the related internal
controls, by implementing risk-based monitoring plans for volunteer stations, sending accounting
personnel to fiscal training and strengthening background checks and volunteers’ written assignment
plans.

Grantee’s Volunteer Recognition Practice Undermines Program Integrity

Our audit of Penquis Community Action Program, which operates grants under the Retired and Senior
Volunteer Program (RSVP) and Foster Grandparent Program (FGP), discovered a problematic FGP
practice of paying cash “longevity” awards to long-serving FGP volunteers. By adding bonus hours to


                                                                                                         10
                                                                             Audits and Reviews
volunteers’ timesheets, the grantee paid stipends for hours that the volunteers did not actually serve.
The longevity bonuses ranged from 40 hours ($106) for 5-9 years of service, to 70 hours ($185.50) for
more than 20 years of service. During the audit period, Penquis claimed costs for 4,600 longevity hours
that volunteers did not actually save. These bonus hours were on top of an already generous policy of
paid annual and sick leave.

Mischaracterizing these longevity bonuses as stipends for service undermines the integrity of the
timekeeping process. Further, it provides no transparency about recognition expenses and therefore
prevents oversight. Nor are cash bonuses permissible as costs of “recognition for [volunteers’] service,”
which are reimbursable pursuant to 45 CFR § 2252.46(e)(2). FGP’s own guidelines on appropriate
recognition refer to celebratory events, tokens and public acknowledgements, all of which differ
qualitatively from monetary awards.

OIG supports recognition of volunteer service, but recognition practices must maintain the program’s
integrity. We have urged the Corporation to recover from the grantee all costs related to these
unauthorized “longevity awards,” stress the importance of volunteer timekeeping integrity and ensure
Senior Corps grantees’ resources and funds spent on volunteer recognition are utilized in a reasonable
and consistent manner.

The problem may not be limited to this grantee. According to Penquis, other Senior Corps grantees in
the region pay similar longevity bonuses. A widespread adoption of this practice – paying an unearned
1-2 weeks of stipend to every volunteer with five or more years of service – is potentially significant
financially. These misused Federal funds could have funded more FGP volunteers to tutor children. OIG
has urged the Corporation to determine whether other grantees pay similar bonuses and, if so, to
instruct them to discontinue the practice and recover the misspent funds.

In addition, we found that more than one-fifth of this grantee’s nearly $1.9 million in claimed Federal
costs was questionable due to non-compliance with applicable laws, regulations and grant provisions.
These issues related to lack of mandatory background checks for volunteers and grantee staff, lack of
eligibility documentation for volunteers and inadequate documentation of service agreements between
the grantee and volunteer stations. As a result, we recommended that the Corporation disallow and
recover costs of nearly $400,000. To improve compliance, we also recommended immediate corrective
actions in each of these areas. (Report: http://www.cncsoig.gov/news-entry/14-06 )

Noncompliant Criminal History Checks and Improper Fundraising Activity Result in
Questioned Costs in Grants Awarded to the Arkansas Commission

As a result of auditing the Commission and three of its twelve subgrantees, we questioned claimed
Federal-share costs of $205,790, match costs of $550,551, education awards of $139,352, and accrued
interest of $500. Despite the magnitude of the unmet match, we did not question a corresponding
amount of Federal cost because the grants were still active, and the time allowed for subgrantees to
meet match requirements had not yet expired. We therefore recommended that the Corporation


11
Audits and Reviews
monitor Commission and subgrantee matching requirements on these awards and, at the end of the
grant, determine whether match requirements were met.

The majority of the questioned costs resulted from the inadequate criminal history checks performed by
certain subgrantees that did not comply with regulatory requirements. We questioned the education
awards at one subgrantee because it performed unallowable fundraising activities; because members
did not separately record fundraising hours on their timesheets, we questioned all education awards
($109,362) for Program Years 2010 through 2011 and 2011 through 2012. (Report:
http://www.cncsoig.gov/news-entry/14-04)

Corporation Disallows $1.4 Million in Costs Claimed by Senior Corps Grantee AHR Based on
OIG Audit

OIG’s audit of Atlantic Human Resources, Inc. (AHR), a New Jersey-based non-profit, found that
pervasive mismanagement by the grantee seriously threatened the integrity of grant funds awarded to
AHR and the Senior Corps program. More than $868,000 in Federal costs and $567,000 in match costs
claimed by AHR during FY 2008-2011 under grants by Senior Corps’ Foster Grandparents Program (FGP)
and Retired and Senior Volunteer Program (RSVP) were duplicative, unsubstantiated and/or incurred
improperly, in violation of applicable laws, regulations and grant provisions. (Report:
http://www.cncsoig.gov/news-entry/13-05b-1 ) The Corporation disallowed $857,000 in Federal costs,
representing 43 percent of the total Federal costs charged under the grant, and $567,000 in non-Federal
costs. The Corporation terminated AHR’s grants in April 2013, concluding a nearly forty-year
relationship with the grantee.

Corporation Fails to Recover Costs for 14 Months While Grantee’s Finances Deteriorate into
Bankruptcy

An August 2012 OIG audit report (12-15) concerning AmeriCorps grantee Operation REACH, Inc. (ORI)
itemized $886,845 in costs ($559,659 Federal costs, $99,897 education awards, and $227,289 match
funds) that were unsupported by required documentation, incurred improperly or expended in violation
of applicable laws, regulations and grant terms and conditions. (Report: http://www.cncsoig.gov/news-
entry/12-15 ) Although $121,521 in program income was collected from AmeriCorps service sites, ORI
could produce no evidence that the funds were deposited into its accounts or used for the benefit of its
AmeriCorps program. Auditors found inadequate financial management, poor or nonexistent record
retention and lack of oversight at service sites, all resulting in substantial mismanagement of Federal
and match funds. Pervasive noncompliance and internal control deficiencies persisted throughout ORI’s
Corporation-sponsored programs, despite the grantee’s prior assurances to multiple State commissions
(Louisiana, Alabama, and Georgia) that the problems were being rectified.

The Corporation has been on notice of these severe deficiencies since October 2011. Because of the
substantial ongoing risk to Federal grant funds, OIG alerted the Corporation and State Commissions
while the audit was pending and urged them to take immediate actions to prevent further losses. In



                                                                                                     12
                                                                            Audits and Reviews
response, the Corporation placed a hold on ORI’s access to additional grant funds, the Louisiana and
Alabama State Commissions did not continue the final years of their grants, and the Georgia State
Commission, which had initially renewed its grants to ORI, terminated them shortly thereafter in early
October 2011.

The Corporation however, failed to take timely action to recover the misused funds and instead allowed
the grantee to string it along with assurances and promises of additional information. Contrary to law
and Corporation policy, the Corporation rendered no decision on the OIG audit findings within six
months and allowed more than one year to pass without completing corrective actions, exceeding the
limited extension authorized by OIG. Although, at OIG’s urging, it initiated proceedings to debar ORI’s
Chief Executive Officer, it allowed an interim suspension to lapse with no further action.

When ORI filed for protection in bankruptcy in October 2013—over two years after OIG’s management
alert and 14 months after issuance of our audit report—the Corporation had not yet issued a debt
notice or begun to recover the amounts owed by the grantee. In March 2014, before the bankruptcy
court, the Corporation adopted the OIG’s audit report as proof of its claim for the improper Federal
costs and education awards, inviting questions as to why it had not acted sooner on those findings.
According to the United States Trustee overseeing the bankruptcy, ORI’s financial condition continued to
deteriorate as its CEO temporized and failed to provide accurate information to the bankruptcy court;
creditors, including the Corporation, were prejudiced by ongoing dissipation of its assets, including
payment of unauthorized compensation to the CEO.

It took the U.S. Trustee less than six months to recognize that ORI and its CEO could not be trusted to
supply accurate information or to cooperate with official inquiries. Unlike the Corporation, the Trustee
acted promptly on that information, informing the bankruptcy court that ORI “has failed to comply with
the [Bankruptcy] Code’s requirements of disclosure, transparency, and candor, and has engaged in gross
mismanagement of the estate,” including by “filing faulty books and records that cannot be relied upon
by the [U.S. Trustee] or the Court.” ORI was unable to “rehabilitate” its own records or explain
discrepancies, made false statements under penalty of perjury about its assets and operations and
“engaged in delays and obstructive behavior.” The bankruptcy court took the unusual step of dismissing
ORI’s bankruptcy, concluding that the grantee’s egregious conduct forfeited its right to protection from
creditors.

The Corporation is now free to pursue recovery on behalf of the taxpayers. It should act with dispatch
to formally disallow the costs identified in our audit report and to expedite collection, before the
grantee’s assets dwindle further. As the bankruptcy proceeding illustrates, allowing ORI still more time
to reconstruct its records is an exercise in futility.

This case provides an object lesson in the need for prompt recovery of misspent funds and the
potentially high costs of delay. The lack of urgency to recover nearly $900,000 in squandered taxpayer




13
Audits and Reviews
funds and willingness to indulge a grantee’s dilatory conduct call into question the Corporation’s
priorities and its commitment to strong accountability.




                                                                                               14
                                        Investigations


The Investigations Section is responsible for the detection and investigation of fraud, waste, and abuse
in the Corporation’s programs and operations. The Section probes allegations of serious—sometimes
criminal—misconduct involving the Corporation’s employees, contractors and grant recipients that
threatens the integrity of the Corporation’s service initiatives. Evidence of serious criminal or fraudulent
conduct is referred to the appropriate United States Attorney or, in some instances, to a local district
attorney for criminal or civil prosecution and monetary recovery. Other investigative results are
referred to Corporation management for information or administrative action.




                                                                                                         15
Investigations

Investigative Demands
The Investigations Section opened nine investigations and completed sixteen investigative actions for
this reporting period. Management replied to eleven investigations previously referred to them.
Highlights of selected investigations closed during this period are reported below.

During this reporting period, the Investigations Section processed a total of 39 Hotline actions. The
increased resources available to us for FY 2014 have allowed our investigators to re-start on-site
outreach, designed to educate grantees, State Commission personnel and Corporation staff about
prevention and detection of fraud, waste and abuse, along with the available reporting channels. OIG
continues its social media messaging and actively pursues other outreach opportunities


Significant Cases and Activity
Corporation Pursues Recovery of Funds Based on OIG Investigation

OIG determined that VISTA sponsor VN Teamwork of Houston, TX, intentionally enrolled 17 employees
in the VISTA program in order to supplement their salaries and benefits with Federal program funds.
This conduct violated the False Claims Act, 31 U.S.C. § 3729 and the VISTA Non-Displacement Employed
Workers regulation, 45 CFR § 1216. As a result, VN Teamwork employees received $234,112.02 in
Federal program funds to which they were not entitled. The Corporation has issued a notice of debt
collection to VN Teamwork to recover $234,112.02 in disallowed costs.

Former School Employee Pleads Guilty to Theft of AmeriCorps Funds

Ms. Welithia Fortune, former Administrative Assistant, Lee County School District, Bishopville, SC,
embezzled $31,805.39 in Federal AmeriCorps program funds, by diverting Federal program funds
intended for the school district to her personal checking account. Ms. Fortune pled guilty to the theft
and was sentenced to six years’ incarceration (suspended), five years’ probation, and restitution of
$31,805.39, plus fees and court costs. She has also been debarred from doing business with the Federal
government for a period of three years.

AmeriCorps Grantee Misused AmeriCorps Members in Staff Positions, Improperly Disbursed
Living Allowances of $236,355 and Improperly Certified $66,600 in Education Awards

Officials of Volunteer Florida (the Florida Service Commission) alleged to OIG that sub-grantee WestCare
was using AmeriCorps members to perform staff administrative functions. OIG’s investigation
substantiated the allegations, leading to disallowance of $73,839 in costs for living allowances for grant
year 2012-2013. No education awards were awarded as a result of the findings.

OIG’s follow-on investigation of the WestCare Nevada State AmeriCorps program discovered similar
violations. As a sub-recipient of Federal funds from the Nevada Volunteers Commission, WestCare’s



                                                                                                       16
                                                                                     Investigations
AmeriCorps members were to provide services to local veterans and military families. However, the
majority performed limited or no such service and were instead assigned clerical, receptionist, patient
transportation and janitorial duties. OIG also found that documents were missing from member files
and that National Sex Offender Public Website (NSOPW) checks were not properly conducted. Based on
the OIG investigation the Nevada Volunteers Commission disallowed $20,088 in reimbursement funds
and did not certify education awards.

WestCare also assigned staff and administrative responsibilities to members under its National Direct
Grant. OIG identified 13 AmeriCorps members who devoted the majority of their service hours to
unallowable activities, in lieu of providing direct service to veterans and their families. Members and
site supervisors reported that the limited number of veterans using WestCare services resulted in
reduced service opportunities and alternate assignments. Their unallowable activities included
administering the AmeriCorps program, landscaping and janitorial services and conducting research. In
two instances, members were required to accelerate completion of their service hours in order to
accept administrative positions, and the increased hours that they recorded reflected no service to
veterans. A WestCare official reported that he had warned WestCare prior to its grant application that
the organization was not prepared to fulfill the grant requirements and that AmeriCorps members could
not perform the administrative and supervisory functions that were ultimately assigned to them.

As a result of these unallowable activities, the Corporation disbursed living allowances of $137,566 and
certified education awards of $61,050 to which members were not entitled. OIG also found one
instance in which the grantee failed to conduct a timely check of the NSOPR, resulting in the improper
payment of a living allowance of $4,862 and improper certification of an education award of $5,550.
The Corporation has not yet acted on these findings.

Corporation Manager Misused Government Credit Card

A management-level Corporation employee misused her Government Travel Card by withdrawing funds
from ATMs for her personal use. She also submitted a false voucher by which she obtained
reimbursement of for personal travel.

Corporation management suspended the employee for a period of 14 days and required her to repay
the travel funds that she was not entitled to receive. She had repaid the advanced ATM withdrawals
prior to the investigation. The Corporation also made changes to her administrative responsibilities as a
result of this conduct.

VISTAs Assigned to Staff Positions

In an instance of lax oversight, a Corporation employee allowed Still Serving Veterans, Huntsville, AL, a
sub-site for the American Legion Auxiliary, to place four VISTA volunteers in staff positions. Under VISTA
Assignment Descriptions (VADs) approved by the Corporation, during a three-year period, VISTA
volunteers performed unallowable service when they served as a receptionist, office administrator and


17
Investigations
IT support coordinators. Applicable regulations prohibit the assignment of VISTA members to perform
staff functions. Federal program funds totaling $57,190 were disbursed for these unallowable VISTA
services.

Corporation management conducted a further review of the American Legion Auxiliary Call to Service
Corps program VADs and found an additional four that suggested unallowable activities. Management
reported that corrective action was taken to update and clarify the VADs to ensure that they included no
unallowable activities.

Corporation’s Manual Verification of Citizenship Unreliable; OIG Recommends Changes

Due to flaws in the Corporation’s manual process for verifying the citizenship of AmeriCorps applicants,
an undocumented immigrant was able to enroll in a Minnesota Read AmeriCorps program and receive
$6,512.83 in Federal funds. The individual enrolled using a fraudulent Social Security number and bogus
permanent resident card. Grantee officials learned of the fraud only when the member declined his
education award at the conclusion of his term of service, admitting that he was in the country illegally
and the documents he provided to enroll were fraudulent.

OIG found that the enrollment information submitted by the grantee was originally rejected based on a
check of the Social Security Administration database. The Corporation notified the grantee of the
rejection and requested the grantee to obtain the necessary identification documents from the
member. Under the Corporation’s manual verification process, an employee of the National Service
Trust reviewed the scanned/faxed documents and decided to allow enrollment of the member. There
was no other verification or inquiry into why this same information had been rejected by the Social
Security database.

Personnel of the National Service Trust have neither the expertise nor the resources to evaluate the
authenticity of identification documents. They have no other tools to assist them in determining the
eligibility of AmeriCorps applicants rejected by the Social Security database.

OIG recommended that Corporation management adopt a more rigorous and reliable process for
verifying the eligibility of any applicant whose citizenship is not verified during the initial review by the
Social Security Administration. Rather than relying solely on employees’ ability to identify fraudulent
identification documents, the Corporation should obtain third-party validation through a verification
database (e.g., Clear or Lexis-Nexis), in order to confirm that the information submitted matches the
individual enrolling in the program. Neither the United States Attorney’s Office nor the Department of
Homeland Security chose to act on the information provided by OIG about this particular individual.

Proactive Efforts Result in Corrective Actions

In coordination with Volunteer Louisiana (the Louisiana State Commission), OIG completed a proactive
review of the Project Homecoming AmeriCorps program (Project Homecoming) conducted by The


                                                                                                          18
                                                                                    Investigations
Presbytery of South Louisiana, sub-recipient of a grant awarded by Volunteer Louisiana. The review
revealed that Project Homecoming officials failed to conduct timely criminal background and National
Sex Offender Public Website (NSOPW) checks, resulting in the improper disbursement of more than
$127,000 in living allowances and $55,000 in education awards certified for ineligible individuals. The
review identified additional concerns regarding the documentation of program costs in Project
Homecoming’s fiscal system.

Volunteer Louisiana concluded that the necessary criminal history checks were conducted late because
of Hurricane Isaac. Project Homecoming provided documentation concerning the questioned costs and
instituted additional procedures to ensure that the noncompliance found by OIG would not recur.

Investigation of Guam AmeriCorps Grantee Highlights Risks of Enrolling Employees

Following up on allegations that a sub-grantee of the Serve Guam! Commission (Commission) enrolled
employees as AmeriCorps members and supplemented their salaries with Federal funds, OIG enlisted
the on-site assistance of the Guam office of the Federal Bureau of Investigation. Their inquiry confirmed
that seven grantee employees were enrolled as part-time AmeriCorps members, but the FBI could not
find evidence that they used their work hours as AmeriCorps service hours. However, as other
investigations have shown, enrollment of employees creates a significant risk and imposes a
concomitantly greater supervisory burden on the grantee to ensure a complete separation between an
employee’s work activities and service activities. Ultimately, the grantee decided to no longer allow
current employees to enroll in the AmeriCorps program.




19
Investigations




                                        Summary Of Cases
           Fiscal Year              FY 2010      FY 2011      FY 2012       FY 2013        FY 2014
  Investigative actions
                                      39           42            22            43             9
opened
  Investigative actions
resolved and closed                   46           35            42            36             16

    Average monthly caseload          32           34            26            23             15
  Investigative matters
resolved without opening a
                                      45           39            51            67             27
separate investigative action

    Referrals for prosecution          9            8             4             7             0
                               2
    Investigative recoveries       $634,803     $447,854     $2,846,203    $590,943       $328,170
                     3
    Cost avoidance
                                   $1,218,178   $1,666,294   $2,321,521    $1,078,316      $62,740
 Administrative or
management action taken               20           14            17            23             11

2
  Includes money received by the Corporation or other government agencies as a result of OIG
investigations, including joint investigations with another OIG, Federal, or State investigative
element.

3
  When OIG investigative action identifies a systemic practice that has subsequently been stopped
or modified due to some type of OIG investigative interdiction, any clear and unmistakable savings
to the Corporation are reported as cost avoidance.




                                                                                                     20
                           Suspension and Debarment


Suspension and debarment are remedies intended to protect the Federal Government from doing
business with individuals or entities whose conduct has shown that they cannot be trusted to conduct
business reliably, in compliance with the law, rules and regulations and with integrity. When the Office
of Inspector General discovers serious misconduct that casts doubt on the present responsibility of a
grantee, grantee staff or other party, it recommends that the Corporation impose debarment to prevent
future harm to Federal programs and operations. If the Corporation begins suspension or debarment
proceedings, the respondent has an opportunity to demonstrate that it should not be excluded from
transactions with the government.




                                                                                                     21
Recent Activity


During this reporting period, the Corporation debarred three individuals based on OIG requests. Each of
these debarments was based on a criminal conviction arising from the misdirection of Federal grant
funds.

Former School Employee Debarred After Conviction

While employed by the Lee County School District, Bishopville, SC, Welithia Fortune diverted $31,805.39
in Federal program funds to her personal bank account. Based on her conviction of theft, the
Corporation debarred her from doing business with the Federal government for a period of three years.

Former AmeriCorps Program Director’s Deception Leads to Debarment

Former Executive Director of the Arkansas HIPPY AmeriCorps Program Barbara Gilkey purposefully
deceived the Arkansas Commission by failing to disclose that she had instructed HIPPY sub-sites to enroll
their paid employees as AmeriCorps members. Her deception resulted in the wrongful award of an
AmeriCorps grant and wrongful disbursement of more than $500,000 in Federal program funds. The
employee “members” simply continued to perform their employment duties, and the community
derived no additional benefit from their AmeriCorps enrollment; AmeriCorps’ authorizing statute
prohibits the use of AmeriCorps members from supplanting or otherwise performing the duties of
employees of a grantee. The Corporation debarred the former executive director from doing business
with the Federal government for a period of three years.

Former Nevada State Commission Program Officer Debarred for Conflict of Interest and
False Statements

Following a site visit, former State Commission Program Officer Brian Guiot falsely stated that
AmeriCorps grantee Luz Community Development Coalition (LCDC), Las Vegas, NV, was in “full
compliance” with the grant provisions. The grantee’s records, however, showed plainly that it failed to
conduct statutorily required checks of the National Sex Offender Public Registry. The Nevada State
Commission relied on the false compliance report, resulting in the improper disbursement of
$265,304.20 in Federal grant funds.

The Program Officer’s loyalty was compromised by a conflict of interest. At the time of his site visit, the
Program Officer was in discussions with the grantee about a management position with the
organization, and he became the director of the grantee’s AmeriCorps program upon resigning from his
position at the State Commission. The Corporation debarred the former program officer from doing
business with the Federal government for a period of one year.




                                                                                                        22
                                        Peer Review


Offices of Inspector General (OIG) are required to include in their semiannual reports to Congress the
results of peer reviews of their offices, as well as outstanding and not fully implemented
recommendations from peer reviews the OIG received from another OIG, and outstanding and not fully
implemented recommendations the OIG made in any peer review it performed for another OIG. The
specific statutory requirements for this reporting is contained in Section 989C of Public Law 111-203,
which amended Section 5 of the Inspector General Act of 1978.




                                                                                                   23
Investigations
The most recent report of a peer review of our investigative operations was issued September 19, 2012,
by the Federal Reserve Board, Office of Inspector General (FRB OIG). It confirmed that the system of
internal safeguards and management procedures for the investigative function of the CNCS OIG in effect
for the period May 2011, through May 18, 2012, is compliant with the quality standards established by
CIGIE and the Attorney General Guidelines. The safeguards and procedures provide reasonable
assurance that the CNCS OIG is conforming to professional standards in the planning, execution and
reporting of its investigations. Our Investigations Section’s next peer review is scheduled for FY 2015.
(Report: http://www.cncsoig.gov/2012-investigations-peer-review)

OIG investigators conducted a Peer Review of the U.S. Nuclear Regulatory Commission, Office of
Inspector General, investigative operations, (NRC-OIG) in September 2013. The system of internal
safeguards and management procedures for the investigative function of the NRC-OIG in effect for the
three year period ending August 31, 2013, is in full compliance with the quality standards of the Council
of the Inspector General on Integrity and Efficiency (CIGIE) and the Attorney General Guidelines. The
safeguards and procedures provide reasonable assurance that the NRC-OIG is conforming to
professional standards in the conduct of its investigations.


Audit
The Audit Section’s most recent Peer Review Report was issued February 27, 2013 by the Smithsonian
Institution OIG. External peer reviews are conducted within the OIG community to evaluate the audit
organization’s system of internal quality control and to ensure that it complies with generally accepted
government auditing standards (the GAO Yellow Book). The report confirmed that: “the system of
quality control for the CNCS OIG in effect for the year ending September 30, 2012, has been suitably
designed and complied with to provide the CNCS OIG with reasonable assurance of performing and
reporting in conformity with applicable professional standards in all material respects.” The CNCS OIG
Audit Section received a peer review rating of pass. (Report: http://www.cncsoig.gov/2012-Peer-
Review.) The Audit Section’s next peer review will take place in FY 2015.

Our Audit Section conducted a quality control review of the audit operations of the Office of Inspector
General, National Science Foundation (NSF). As part of the peer review, we evaluated the NSF OIG’s staff
qualifications, their independence, audit work, training, and quality control procedures. NSF received a
pass rating, the results of this peer review can be found on the NSF OIG’s website at www.nsf.gov/oig.
The Audit Section’s next peer review will take place in Fiscal Year 2015.




                                                                                                      24
                 Review of Legislation and Regulations


Section 4(a) of the Inspector General Act directs the Office of Inspector General to review and make
recommendations about existing and proposed legislation and regulations relating to the Corporation’s
programs and operations. The Office of Inspector General reviews legislation and regulations to
determine their impact on the economy and efficiency of the Corporation’s administration of its
programs and operations. It also reviews and makes recommendations on the impact that legislation
and regulations may have on efforts to prevent and detect fraud and abuse in Corporation programs
and operations. The Office of Inspector General draws on its experience in audits and investigations as
the basis for its recommendations.




                                                                                                    25
Legislation and Regulations



Congress Grants Legislative Relief To Facilitate FBI Fingerprint Checks by Grantees

Section 189D of the Serve America Act of 2009 requires that Corporation grantees check the national
criminal history of volunteers and grantees staff whose service involves access to children under the age
of 17, persons older than 60 years of age and individuals with disabilities by submitting their fingerprints
to the FBI for a match of criminal records. The FBI fingerprint check is in addition to the name-based
checks of the National Sex Offender Public Website and State criminal registries required by statute
from all Corporation grant program staff and volunteers.

In its Congressional Budget Justification for FY 2014, the Corporation sought to narrow the fingerprint
check because many State agencies were unwilling or unable to submit the necessary requests to the
FBI on behalf of Corporation grantees. The Corporation therefore sought to eliminate fingerprint check
requirement for volunteers and staff who worked with disabled persons or those over 60, and rely
exclusively on the name-based state criminal registry and National Sex Offender Public Website checks.
OIG opposed the proposed change, on the ground that fingerprints often represent the best means to
capture the histories of those attempting to evade detection by use of aliases, name changes, or other
subterfuge; such checks are therefore appropriate to protect the elderly and the disabled, whom
Congress has identified as particularly vulnerable.

The most recent appropriation act retains the fingerprint requirement and authorizes Corporation
grantees to obtain fingerprint checks directly. Corporation grantees are now considered “qualified
entities” under the National Child Protection Act. For a fee not to exceed 18 dollars, they are permitted
to obtain fingerprint results from designated State agencies with access to the FBI database. With this
relief, Corporation grant programs can operate in a manner that assures the safety of those groups at
high risk.

Corporation Does Not Provide ACA-Compliant Health Care Coverage: AmeriCorps and VISTA
Members Must Find Other Insurance

The Serve America Act requires that AmeriCorps grantees “provide or make available a basic health care
policy for every full-time participant” and that the Corporation “establish minimum standards that all
plans must meet in order to qualify for payment under this part.” sec. 140. Grant provisions adopted
by the Corporation establish minimum standards for health insurance for national service participants,
and the Corporation is authorized to reimburse up to 85 percent of the cost of this health care coverage.

Last December, the Corporation informed AmeriCorps VISTA members that the health insurance
provided to VISTAs through the AmeriCorps Health Benefits Plan did not meet the “minimally essential
coverage” requirements of the Affordable Care Act of 2009 (ACA). AmeriCorps grantees were also
advised that the policy that covers AmeriCorps members was also noncompliant.




                                                                                                         26
                                                                 Legislation and Regulations
The result is that VISTA volunteers and AmeriCorps members must find other ACA-compliant coverage,
either under a parent’s health insurance policy (if under 26 years of age) or by purchasing insurance for
themselves under Federal or State Exchanges or obtain coverage through State Medicaid programs
(where available, and if income-eligible). Those who do not obtain coverage may be subject to fines
under “individual responsibility” requirements of ACA. The Corporation reports that, “[o]ver the next
year AmeriCorps will be working to improve the quality of health care for its members and to provide
insurance that meets the requirements of the ACA in the near future.”

OIG is concerned that the Corporation and its grantees are not meeting their legal responsibility under
the Serve America Act to provide full-time AmeriCorps members with health care coverage that meets
current national standards, and that the Corporation failed to incorporate into its grant requirements
the coverage mandated by the ACA. This has imposed unanticipated costs on AmeriCorps members and
VISTA volunteers. Moreover, we question the economy of reimbursing grantees for coverage that falls
below the ACA’s minimum standards, especially if national service participants must incur additional
costs for largely duplicative coverage. We recommend that AmeriCorps grant provisions require
grantees to provide a policy consistent with the ACA minimums and that the Corporation work with its
insurance carrier to revise the AmeriCorps Health Benefits Plan to be ACA compliant for the VISTA and
NCCC members.

Corporation Strengthens Accountability in VISTA Program, Modifies VISTA Sponsor
Agreements To Hold Sponsor Financially Responsible for Improper Use of VISTA Volunteers

Prior OIG audits have found that certain sponsors misused VISTA members’ service time, by having them
perform direct service or undertake activities unrelated to the VISTA program’s anti-poverty mission. In
such cases, OIG has recommended that the Corporation recoup from the VISTA project sponsor the
VISTA member’s federally funded living allowance and education award pro rata to the misused time.

Historically, the Corporation has taken the position that it cannot recoup living allowances because they
are paid directly to the VISTA members by the Corporation. It has asserted that it has no legal recourse
against the VISTA sponsor for improper use of VISTA volunteers other than terminating the project and
reassigning the VISTAs. OIG recommended that the Corporation adopt new contractual provisions that
would create a recoupment remedy in these circumstances.

We are pleased to report that the Corporation has now created a legal avenue to recoup the costs
associated with improperly used VISTA services. Under a new section added to the VISTA sponsor
agreement, the sponsor, or any sub-recipient, can be held financially responsible for any misuse of
VISTA volunteers’ time and activities. OIG regards this as a significant improvement of accountability in
the VISTA program which will help to ensure that its resources will be used for the intended purpose of
eradicating poverty.




27
Legislation and Regulations
Conference Spending

Last year, Congress enacted requirements that Federal agencies report to their OIGs detailed
information on conference spending. In February, the Corporation itemized for OIG its 2013
conferences, setting out each event’s purpose, cost, date, location, and number of people in
attendance. The six events involved training and technical assistance to Corporation grantees, and each
cost the Corporation less than $100,000.

Corporation Policy Council

OIG participates as an observer in the Corporation’s Policy Council, which is charged with developing
and amending internal policies covering all operations. Based on our audit and investigation experience,
OIG recommends revisions to proposed Corporation policies to strengthen internal controls and
improve oversight.

During this reporting period, OIG recommended revisions, which the Corporation incorporated, for the
following finalized policies:

   •    Property Management Policy
   •    Closeout of Grants Awards
   •    Grant Fund Holds for Late Reporting
   •    Acquisition Policy
   •    Continuity of Operations Plan
   •    Due Diligence Prior to Initiating Collaborations

Also during this reporting period, the OIG provided comments to the Corporation for the following
policies, which are pending revision:

    •   CNCS Integrity Framework
    •   Anti-Fraud Policy
    •   Debt Collection
    •   Portfolio Plan Procedure
    •   Funding Certification Procedure
    •   Change of Duty Station Policy
    •   Application Deadlines and Late Submissions
    •   Education Award Extensions
    •   Financial Disclosure




                                                                                                     28
Agency Response




                      Statistical and Summary Tables


The statistical and summary tables in this section are submitted in compliance with the requirements
enumerated in the Inspector General Act.




                                                                                                 29
Tables

I.     Inspector General Act Reporting Requirements
This table cross-references the reporting requirements prescribed by the Inspector General Act of 1978,
as amended, to the specific pages in the report where they are addressed.




     Section                               Requirement                                   Page
      4 (a)(2)                   Review of legislation and regulations                    25

                     Significant problems, abuses, and deficiencies related to the
      5 (a)(1)                                                                         Throughout
                        administration of Corporation programs and operations

                   Recommendations with respect to significant problems, abuses
      5 (a)(2)       and deficiencies found in the administration of Corporation
                                                                                       Throughout
                                      programs and operations
                     Prior significant recommendations on which corrective action
      5 (a)(3)                                                                            33
                                         has not been completed
                                                                                       None this
      5 (a)(4)                Matters referred to prosecutorial authorities
                                                                                        period
                                                                                       None this
      5 (a)(5)          Summary of instances where information was refused
                                                                                        period
                     List of audit reports by subject matter showing dollar value of
      5 (a)(6)                                                                            34
                               questioned costs and unsupported costs.
      5 (a)(7)                      Summary of significant reports                     Throughout

                    Statistical table showing number of reports and dollar value of
      5 (a)(8)                                                                            30
                                            questioned costs

                    Statistical table showing number of reports and dollar value of
      5 (a)(9)                                                                            34
                           recommendations that funds be put to better use
                    Summary of each audit issued before this reporting period for
     5 (a)(10)      which no management decision was made by end of reporting             32
                                              period
                                                                                       None this
     5 (a)(11)                Significant revised management decisions
                                                                                        period
                                                                                       None this
     5 (a)(12)                             None this Period
                                                                                        period




                                                                                                    30
                                                                                                 Tables

II.       Reports with Questioned Costs


                                                                Federal Costs

                 Report Category                 Number   Questioned       Unsupported
                                                               (Dollars in thousands)
A. Reports for which no management decision        6            $4,306                  $3,415
   had been made by the commencement of the
   reporting period

B. Reports issued during the reporting period      3            $2,339                   $567

C. Total Reports (A + B)                           9            $6,645                  $3,982

D. Reports for which a management decision         2            $1,112                   $957
   was made during the reporting period

      I. Value of disallowed costs                              $1,081                   $957

      II. Value of costs not disallowed                            $31                     $0

 E. Reports for which no management decision       7            $5,533                  $3,025
    had been made by the end of the reporting
    period (C minus D)

 F. Reports with questioned costs for which no     4            $3,194                  $2,458
    management decision was made within six
    months of issuance




31
Tables

III. Reports with Recommendations That Funds Be Put To
Better Use



                                                                 Dollar Value
                     Report Category                  Number
                                                               (In thousands)
    Reports for which no management decision had
 A. been made by the commencement of the                4          $3,334
    reporting period

 B. Reports issued during the reporting period          1           $139

 C. Total Reports (A + B)                               5          3,473
      Reports for which a management decision was
 D.                                                     1           $33
      made during the reporting period
                  i.        Value
                        of recommendations agreed
                                                                    $31
             to by management
                 ii.        Value
                         of recommendations not
                                                                     $2
             agreed to by management
    Reports for which no management decision had
 E. been made by the end of the reporting period (C     4          $3,440
    minus D)
      Reports for which no management decision was
 F.                                                     3          $3,301
      made within six months of issuance




                                                                                32
                                                                                                      Tables

IV.          Summary of Audits with Overdue Management Decisions

                                                          Federal           Mgmt.
  Report                                                                                Status at End of Reporting
                                 Title                     Dollars         Decision
 Number                                                                                           Period
                                                         Questioned          Due
                                                           (Dollars in thousands)              (09/30/13)
               Audit of Earned Education Awards                                       The Corporation has not issued
     12-04     Resulting from Compelling Personal            $0           5/9/2012    a Draft Management Decision
               Circumstances                                                          for this.
                                                                                      The Corporation issued a Draft
               Audit of Trust Payments to Education &
     12-08                                                   $0          10/3/2012    Management Decision for this
               Financial Institutions
                                                                                      report on 3/24/2014.
                                                                                      The Corporation issued a Draft
     12-10     IPERA Compliance Evaluation                   $0           9/7/2012    Management Decision for this
                                                                                      report on 3/31/2014.
               Agreed-Upon Procedures for
                                                                                      The Corporation has not issued
               Corporation for National and
     12-13                                                  $392         2/15/2013    a Draft Management Decision
               Community Service Grants Awarded to
                                                                                      for this.
               the Oregon Commission
               Agreed-Upon Procedures for
                                                                                      The Corporation has not issued
               Corporation for National and
     12-15                                                  $560         2/28/2013    a Draft Management Decision
               Community Service Grants Awarded to
                                                                                      for this report.
               the Operations Reach, Inc.
               Agreed-Upon Procedures for
                                                                                      The Corporation has not issued
               Corporation for National and
     12-16                                                 $1,895        3/27/2013    a Draft Management Decision
               Community Service Grants Awarded to
                                                                                      for this.
               the New Jersey Commission
               Fiscal Year 2012 Evaluation of the
                                                                                      The Corporation issued a Draft
               Corporation's Compliance with
     13-04                                                   $0          9/16/2013    Management Decision for this
               Improper Payments Elimination and
                                                                                      report on 3/31/2014.
               Recovery Act (IPERA)
               Supplemental Report of Corporation                                     The Corporation issued a Draft
 13-05B        Grants Awarded to Atlantic Human              $0         11/12/2013    Management Decision for this
               Resources, Inc. (AHR)                                                  report on 2/25/2014.
               Agreed-Upon Procedures for
                                                                                      The Corporation issued a Draft
               Corporation for National and
     13-06                                                  $348         12/6/2013    Management Decision for this
               Community Service Grants Awarded to
                                                                                      report on 3/18/2014.
               Edna McConnell Clark Foundation
               Inadequate Internal Controls Prevent
                                                                                      The Corporation issued a Draft
               the Corporation from Mitigating
     13-07                                                   $0          3/31/2013    Management Decision for this
               Significant Risks Inherent in the Fixed
                                                                                      report on 3/28/2014.
               Amount Grants Program
                                  Total                    $3,195




33
Tables

V. Reports Described in Prior Semiannual Reports without
Final Action

   Report                                                                     Final Action
   Number                          Title                      Date Issued        Due*


                Audit of Earned Education Awards Resulting
    12-04                                                     11/9/2011       11/9/2012
                from Compelling Personal Circumstances


                Audit of National Service Trust Payments to
    12-08                                                      4/3/2012        4/3/2013
                Financial & Education Institutions


                Evaluation of the Corporation's Compliance
    12-10       with Improper Payments Elimination and         3/7/2012        3/7/2013
                Recovery Act (IPERA)


                Agreed-Upon Procedures for Corporation
    12-13       for National and Community Service Grants     8/15/2012       12/15/2013
                Awarded to Oregon Volunteers


                Audit of Corporation for National &
    12-15       Community Service Grants Awarded to           8/28/2012       11/28/2013
                Operations Reach, Inc.


                Agreed-Upon Procedures for Grants
    12-16       Awarded to New Jersey Commission on           9/27/2012       12/15/2013
                National and Community Service


*Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
management decision must be made within six months of the issuance of the final report and
corrective actions must be completed within one year.




                                                                                               34
                                                                                               Tables

VI.     Audit Reports Issued

                             October 1, 2013 – March 31, 2014

 Report                                           Dollars         Dollars             Funds Put To
                      Report Name
 Number                                         Questioned      Unsupported            Better Use
                                                             (Dollars in thousands)
           Audit of the Corporation for
           National and Community Service's
14-01                                               $0               $0                   $0
           Fiscal Year 2013 Financial
           Statements
           Audit of the Corporation for
           National and Community Service's
14-02                                               $0               $0                   $0
           Fiscal Year 2013 National Service
           Trust Fund Financial Statements
           Federal Information Security
14-03      Management Act (FISMA)                                    $0                   $0
           Independent Evaluation for FY 2013

           Agreed-Upon Procedures for
14-04      Corporation Grants Awarded to         $205,970         $2,418               $139,252
           Arkansas State Commission

           Audit of Corporation Grants
14-05      Awarded to Family Services of        $173,8454        $214,079                 $0
           Central Massachusetts
           Audit of Corporation for National
           and Community Service Grants
14-06                                            $394,401        $350,388                 $0
           Awarded to Penquis Community
           Action Program

           Evaluation of the Corporation’s
14-07      Personnel Education and
           Qualification Review                  $0               $0                      $0


                         TOTAL                  $2,338,825       $566,885              $139,252




35
